CERTIFICATE OF SERVICE
NO. TBD
Vincent Tang
Petitioner,
v.
JPMorgan Chase Bank, N.A. et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the VINCENT
TANG PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same by
Fedex 2-Day, prepaid for deliveryto the following addresses.
Mariel Gerlt-Ferraro
Parker Ibrahim & Berg, LLC
695 Town Center Drive, 16th Floor
Costa Mesa, CA 92626
mariel.gerlt-ferraro@piblaw.com
Counsel for JPMorgan Chase Bank, N.A.
and for Deborah Brignac

Douglas Straus
Tiffany Ng
Buchalter, Inc.
55 Second Street, Suite 1700
San Francisco, CA 94105
dstraus@buchalter.com
Counsel for Select Portfolio Servicing
and U.S. Bank, N.A.

Lucas DeDeus

June 10, 2021
SCP Tracking: Spielbauer, Esq.-3130 Balfour Road D #231-Cover White

